                                                                        CLOSEOUT MEMORANDUM FOR A-01090029
                              In September 2001, our office received an allegation that two PIS (subjects 1 and 2)' each
                              submitted virtually identical NSF proposals (proposals 1 and 2)* to different programs.
                              Subject 1, an established researcher, submitted proposal 1 to a standard NSF research
                              program. About 2% months later, subject 2, a post-doctoral researcher (post doc) in
                              subject 1's laboratory, submitted proposal 2 to a new IVSF program specifically intended
                              to fund post docs.)
                              Our review showed that, although some differences existed between the proposals, the
                              main proposals' text, tables and figures were identical. Both proposals requested funds to
                              support subject 2 as a post-doc. Likewise, the "Current and Pending Support" (CPS)
                              forms for both proposals listed the submission of proposal 1 as pending. Subject 1
                              clearly indicated in his proposal that the project was to support subject 2. Finally, in their
                              respective CPS forms, subject 1 indicated that he would commit no significant time to the
                              project while subject 2 stated that she would commit full-time to the project.
                              It is not uncommon for PIS to submit proposals that request support for their post docs.
                              Further, because subject 1's proposal described subject 2's research effort, subject 2
                              reasonably provided significant input into the development of proposal 1 which she later
                              submitted as proposal 2. Finally, the public announcement for the new NSF program
                              initiative came less than 2 months before subject 1 submitted proposal 1,4 so it is
                              plausible that subject 2 did not learn about the new program until after subject 1
                              submitted proposal        Nevertheless, subject 2 clearly indicated in proposal 2 the
                              submission of subject 1's proposal. Subject 2 fulfilled her basic responsibility to inform
                              the NSF program officer about the submission of the similar earlier proposal 1 by
                              including this information in her proposal's CPS form.
                              This inquiry is closed and no further action will be taken.
                              cc: Investigations, IG.




__   .   ... . .   . . . ..   .
                                  s   Proposal 1 was received on



                                      ..   .   . .   . ..   ,   .   .   .   . . .   .
                                                                                        -
                                                                                        -.--




                                                                                        _. .
                                                                                                  Page 1 of 1
                                                                                               . . ..      . . ..   .   _^   .
                                                                                                                                 A 01-29
                                                                                                                                 ..   ..   - . - ..   .   .. - .   .   .   . -.   -   .
